U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 24, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Usama Jamil Hamama, et al. v. Rebecca Adducci, et al.,
S.CtNo. 19-294

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 30,
2019, and placed on the docket on September 4, 2019. The government's response is due on
October 4, 2019.
We respectfttily request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 4, 2019, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0294
HAMAMA, USAMA JAMIL, ET AL.
REBECCA ADDUCCI, ET AL.

MIRIAM J. AUKERMAN
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION OF MICHIGAN
1514 WEALTHY STREET SE
GRAND RAPIDS, MI 49506
ANAND BALAKRISHNAN
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
18TH FLOOR
NEW YORK, NY 10004
DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 1STHSTREETNW
WASHINGTON, DC 20005
DAVID JOHNSON
573 HAWKSNEST DRIVE
SOUTH HAVEN, MI 49090
MARCO SCHLANGER
625 SOUTH STATE STREET
ANN ARBOR, MI 48109
734-615-2618
MARGO. SCHLANGER@GMAIL.COM

KIMBERLY L. SCOTT
MILLER, CANFIELD, PADDOCK & STONE, PLC
101 N. MAIN STREET
7TH FLOOR
ANN ARBOR, MI 48104

